APPENDIX A
Opinion of the State Appellate court (Third District Court of Appeal of Florida),
dated April 1,2020, affirming the trial court’s denial of Petitioner's petition for writ
of habeas corpus.

3

Cfjtrti B strict Court of Appeal
State of Florida
Opinion filed April 1, 2020.
Not-final until disposition of timely filed motion for rehearing.

No. 3D19-1845
Lower Tribunal No. 98-39479C

Jonnie Ravon,
Appellant,
vs.

The State of Florida,
Appellee.

An Appeal from the Circuit Court for Miami-Dade County, Diane V. Ward,
Judge.
Jonnie Ravon, in proper person.
Ashley Moody, Attorney General, and David Llanes, Assistant Attorney
General, for appellee.

Before EMAS, C.J., and FERNANDEZ, and LINDSEY, JJ.
PER CURIAM.
Affirmed.

\

APPENDIX B
Order from the Circuit Court of the Eleventh Judicial Circuit in and for Miami
Dade County denying Petitioner’s petition for writ of habeas corpus, dated
August 23, 2019.

4

IN THE CIRCUIT COURT OF THE ELEVENTH JUDICIAL CIRCUIT
IN AND FOR DADE COUNTY, FLORIDA
CRIMINAL DIVISION (03)
CASE NO.

F98-39479C

JONNIE RAVON,
JUDGE WARD
Petitioner,
v.

K. Turner 5188

FILED

STATE OF FLORIDA,

AUG 2 3 2019

Respondent.
CLERK

ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS
This cause having come before this Court on Petitioner’s pro se Petition for Writ
of Habeas Corpus Based Upon Manifest injustice filed on August 8, 2019S the Court
l

having reviewed the Petitioner’s petition and clerk’s file and being otherwise fully
advised of the premises, hereby D zNIES the petition based on the following:
On September 18, 2000, the Petitioner was sentenced as follows:
Count 1
Count 4
Count 5
Count 7
Count 8
Count 11

Aggravated Battery with a Firearm
Attempted Arrjied Robbery w/Firearm
Kidnapping wijth a Firearm
Kidnapping wijtti a Firearm
Kidnapping wijth a Firearm
Burglary w/Assault or Battery w/firearm

30 years
15 years
life
life
life
life

In this motion the Petitioner argues that the life sentences imposed in this case
violate the Florida and United States Constitution because he was eighteen (18) years
old at the time he committed the offenses and lacked the moral culpability of an adult.
He seeks support for his position in Roper v. Simmons, 543 U.S. 551 (2005) where the
Page | 1

g.-.y i

Supreme Court held that it was unconstitutional to impose the death penalty for
defendants whose chronological age was below eighteen. In Roper the Supreme
Court recognized that “[t]he qualities that distinguish juveniles from adults do not
disappear when an individual turns 18,” the Court nevertheless concluded that the line
must be drawn at the age of 18 because that is “the point where society draws the line
for many purposes between childhood and adulthood.” Id. at 574, 125 S.Ct. 1183. The
Petitioner in this case was eighteen at the time of the commission of the life felonies so
Roper would not apply.
He also seeks support from Graham v. Florida, 560 U.S. 48 (2010) where the
United States Supreme Court held that imposition of a life without parole sentence on a
juvenile offender who did not commit a homicide constitutes cruel and unusual
punishment. The Court reasoned that juvenile nonhomicide offenders' limited
culpability, the severity of the sentence of life without parole, and the lack of penological
justification for the punishment for such offenders led the Court to conclude that the
sentencing practice was cruel and unusual. Id. at 74, 130 S.Ct. 2011. After examining
the characteristics of juveniles, the Court again drew the “clear line” at the age of
eighteen for the purposes of its ho ding because that is the point where society draws
the line for many purposes between childhood and adulthood. Id. at 74-75, 130 S.Ct.
2011.

See, Paul v. State, 2019 WL 3282538 (Fla. 1st DCA July 22, 2019).
Section 985.03(7) Florida Statutes defines a juvenile as “...any person under the

age of 18 or any person who is alleged to have committed a violation of law occurring
prior to the time that person reached the age of 18 years.” The Petitioner concedes in
Page | 2

his motion that he was eighteen (18) years old at the time he committed the offenses in
this case, so he was considered an adult. The holdings of Roper and Graham are
limited to juveniles whose chronological age is under 18 years old. See, Romero v.
State, 105 So.3d 550 (Fla. 1st DCA 2012); Jean-Michel v. State, 96 So.3d 1043 (Fla. 4th
DCA 2012); Farmer v. State, 268 So.3d 1009 (Fla. 1st DCA 2019). Based on the
foregoing, it is hereby
ORDERED AND ADJUDGED that the petition is DENIED.
The Petitioner, JONNIE RAVON is hereby notified that he has the right to appeal
this order to the District Court of Appeal of Florida, Third District within thirty (30) days
of the signing and filing of this order. The Clerk of this Court is hereby ordered to send
a copy of this order to the Petitioner, JONNIE RAVON, #M28600, Everglades
Correctional Institute, 1599 SW 187th Avenue, Miami, FL 33194-2801.
DONE AND ORDERED in chambers this 23rd day of August 2019 in Miami-Dade
County, Florida.

IANE
urt Judge
Copies:
Office of the State Attorney
Jonnie Ravon, pro se

STATF Or FLORIDA, COUNTY OF DADE
I HEREBY CERTIFY that the foregoing is a true

3ndAugcnf,ira,onn,einthisoffice rf&M,
r
^
Jj

i CERTIFY that a copy of this orderimbeen farnished to
the MOVANT^O^nte fl\QVor\ by mail this 2-^ day HARVEY RUVIN, Clerkof Ciici/ar^County Courts
Oeputv Clerk
of
.20
V

$* coo wt

as

&

*
-7 ^

1*2

Page | 3

APPENDIX C
Order from the Third District Court of Appeal denying Petitioner's motion for
rehearing on April 23, 2020.

5

IN THE DISTRICT COURT OF APPEAL
OF FLORIDA
THIRD DISTRICT
APRIL 23, 2020

JONNIE RAVON,
Appellant(s)/Petitioner(s),
vs.
THE STATE OF FLORIDA,
Appellee(s)/Respondent(s),

CASE NO.: 3D19-1845
L.T. NO.:

98-39479

Upon consideration, Appellant’s pro se Motion for Rehearing is
hereby denied.
EMAS, C.J., and FERNANDEZ and LINDSEY, JJ., concur.
A TruCjiel^wY
AO’gir
tA

|v>

•Tf"

\

cc:
la

David Llanes

Office of Attorney General

Jonnie Ravon

